No. L9-1126
IN

rnn

åupr¿me @outt of tle @nit¿ù 9¡tuws
Srecnv MooNrY,
Petítioner,

v

IlltNors Eouc¡.rroN AssocnrloN,

ET AL.,

Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the LLth day of Muy,
2020, serve an electronic copy of the BRIEF IN OPPOSITION in the above-entitled
case to all parties required to be served, who consented to electíonic service only:
Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue
Suite 400
Austin, TX 78701
512.686.3940
onathan@mitchell. law

j

I certify under penalty of perjury that the foregoing is true and correct

uren Noto

